No. 20-579

In the Supreme Court of the United States
ZIMMIAN TABB, PETITIONER,
v.
UNITED STATES OF AMERICA
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT

SUPPLEMENTAL BRIEF FOR THE PETITIONER
RICHARD E. SIGNORELLI
LAW OFFICE OF
RICHARD E. SIGNORELLI
52 Duane Street
7th Floor
New York, NY 10007
(212) 254-4218

JOHN P. ELWOOD
Counsel of Record
R. STANTON JONES
ANDREW T. TUTT
SAMUEL F. CALLAHAN
NORA ELLINGSEN
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
john.elwood@arnoldporter.com

SUPPLEMENTAL BRIEF FOR THE PETITIONER

Petitioner submits this supplemental brief to bring to
the Court’s attention a court of appeals decision, United
States v. Riccardi, ___ F.3d ___, 2021 WL 799727 (6th Cir.
Mar. 3, 2021), issued after the filing of petitioner’s reply
brief. Riccardi, applying Kisor v. Wilkie, 139 S. Ct. 2400
(2019), declined to defer to commentary to a Sentencing
Guideline governing theft offenses. Riccardi confirms
that this case presents frequently recurring methodological questions that only this Court can resolve.
1. The defendant in Riccardi was convicted of stealing gift cards and sentenced under U.S.S.G. § 2B1.1,
whose sentences depend on “loss” caused by the theft.
The district court applied commentary establishing a $500
minimum loss per gift card, no matter the card’s value.
The Sixth Circuit reversed and remanded for resentencing “without the use of the commentary[ ].” 2021 WL
799727, at *1.
Writing for the court, Judge Murphy addressed a
methodological question: “Should Kisor affect our approach to the commentary?” 2021 WL 799727, at *5. The
court answered “yes.” “Stinson * * * told courts to follow
basic administrative-law concepts despite Congress’s decision to locate the relevant agency (the Commission) in
the judicial branch rather than the executive branch.”
Ibid. “So Kisor’s clarification of [Auer’s] plain-error
test”—i.e., that agencies may only issue interpretations
within the “zone of ambiguity” of a “genuinely ambiguous” regulation—“applies just as much to Stinson (and
the Commission’s guidelines) as it does to Auer (and an
agency’s regulations).” Id. at *5-*6. The court relied extensively on its unanimous en banc decision in United
States v. Havis, 927 F.3d 382 (2019), which though decided
(1)

2
before Kisor had made these principles clear. 2021 WL
799727, at *1, *4-*5; see Pet. 12-13; Reply 3-4.
The Sixth Circuit rejected the government’s efforts
to “distinguish * * * Havis” as limited to the Career Offender Guideline. 2021 WL 799727, at *8. The court also
did not consider itself bound by precedent interpreting
the same Application Note, explaining that the prior decision “did not address Kisor’s recent clarification about the
limited nature of Auer.” Ibid.
The Sixth Circuit confirmed that it was “not alone in
th[e] conclusion” that Kisor forbids “reflexively defer[ring]” to Guidelines commentary. 2021 WL 799727, at
*5-*6. “The en banc Third Circuit recently adopted the
same view.” Id. at *6 (citing United States v. Nasir, 982
F.3d 144, 158 (2020)). Nasir “recognized that its pre-Kisor
cases had upheld commentary expanding the guidelines.
Yet these cases could not stand after Kisor, the court
found, because it ‘cut back on what had been understood
to be uncritical and broad deference to agency interpretations of regulations[.]’ ” Ibid. (citations omitted).
The Sixth Circuit also held that it was irrelevant that
the Commission had voluntarily “sent the [commentary]
amendment adopting this $500 minimum amount to Congress for its review” and had gratuitously used “noticeand-comment rulemaking.” 2021 WL 799727, at *8. “By
placing this loss amount in the commentary, the Commission has retained the power to adjust it tomorrow without
satisfying the same procedural safeguards. So the normal
administrative principles should apply.” Ibid. (citation
omitted). See Reply 8-9.
Riccardi thus applied Kisor and “first ask[ed]
whether § 2B1.1 is ‘genuinely ambiguous’ ” as to the meaning of “loss.” 2021 WL 799727, at *6. It concluded that no
matter whether there was such ambiguity, “the commentary’s $500 minimum loss amount for gift cards does not

3
fall ‘within the zone of [any] ambiguity’ in this guideline.”
Id. at *7 (quoting Kisor, 139 S. Ct. at 2415).
2. Concurring in the judgment, Judge Nalbandian
explained that he “would continue to apply Stinson deference to guideline commentary cases rather than Kisor.”
2021 WL 799727, at *10. He viewed “Stinson deference as
its own free-standing directive,” under which “[c]ommentary is authoritative as long as the interpretation does not
violate the Constitution or a federal statute and is not
plainly erroneous or inconsistent with the provision’s
text.” Id. at *11 (quotation marks omitted). He relied on
“two Fifth Circuit cases” that he viewed as “reject[ing]
the idea that Kisor’s holding about Auer” affected the
Guidelines. Ibid. (citing United States v. Cruz-Flores, 799
Fed. Appx. 245, 246 (5th Cir. 2020) (per curiam); and
United States v. Vivar-Lopez, 788 Fed. Appx. 300, 301
(5th Cir. 2019) (per curiam)). But see Opp. 15 (“Kisor ‘sets
forth the authoritative standards for determining
whether commentary is entitled to deference’ ”).
3. Riccardi confirms that the circuits are divided
over a broad, recurring, methodological question:
Whether Kisor requires courts to make a finding of genuine ambiguity before deferring to commentary, notwithstanding deferential pre-Kisor circuit precedent. Pet. 1117; Reply 3-4. The interpretive methodology that the
Sixth Circuit applied to the theft-offense Guideline is irreconcilable with the methodology applied by the court
below and by the First, Fifth, Seventh, Eighth, Ninth,
Tenth, and Eleventh Circuits. Reply 3-4. Riccardi thus
dispels any notion that this division “turns on the particulars” of the Career Offender Guideline, Opp. 25; see Reply 4. The methodological nature of the dispute means
that the Commission cannot resolve the questions presented. Pet. 17-19; Reply 5.
Riccardi also stands as yet another decision rejecting
that the Commission can elevate commentary to the

4
status of a Guideline by using its ordinary practice of submitting the commentary to Congress, Reply 8-9; and it reaffirms the importance of proper Guidelines interpretation given that the Guidelines “significantly affect individual liberty because a court must use them as the initial
benchmark for a proper sentence,” 2021 WL 799727, at *4
(citing Havis, 927 F.3d at 385); see Pet. 27-28; Reply 11.
CONCLUSION

The Court should grant the petition for a writ of certiorari.
Respectfully submitted.
RICHARD E. SIGNORELLI
LAW OFFICE OF
RICHARD E. SIGNORELLI
52 Duane Street
7th Floor
New York, NY 10007
(212) 254-4218

MARCH 2021

JOHN P. ELWOOD
Counsel of Record
R. STANTON JONES
ANDREW T. TUTT
SAMUEL F. CALLAHAN
NORA ELLINGSEN
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
john.elwood@arnoldporter.com

